No. 20A138

In the Supreme Court of the United States
GATEWAY CITY CHURCH, ET AL.,
Applicants,
v.
GAVIN NEWSOM, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF CALIFORNIA, ET AL.,
Respondents.
To the Honorable Elena Kagan, Associate Justice of the United States
Supreme Court and Circuit Justice for the Ninth Circuit
CERTIFICATE OF COMPLIANCE
I, Eric Rassbach, a member of the Bar of this Court and counsel for the amicus on
the accompanying Motion by The Becket Fund for Religious Liberty, with Attached
Proposed Amicus Curiae Brief in Support of Applicants, for Leave (1) to File the Brief
and (2) to Do So without Ten Days’ Notice, certify under Rule 33.1(h) of the Rules of
this Court that the motion contains 445 words and the brief contains 3,814 words,
excluding the parts that are exempted by Rule 33.1(d).

Eric Rassbach
Counsel of Record
The Becket Fund for Religious Liberty
1919 Pennsylvania Ave. NW
Washington, DC 20006
Tel. (202) 955-0095
erassbach@becketlaw.org

